<html>
<title> - THE SECURITY OF U.S. VISA PROGRAMS</title>
<body><pre>[Senate Hearing 114-662]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-662
 
                   THE SECURITY OF U.S. VISA PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        
        
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-768 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
  
  
  
  
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
                    Daniel P. Lips, Policy Director
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
              Jose J. Bautista, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
               Holly A. Idelson, Minority Senior Counsel
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Tester...............................................     3
    Senator Sasse................................................    17
    Senator Booker...............................................    22
    Senator Ernst................................................    26
Prepared statements:
    Senator Johnson..............................................    35
    Senator Carper...............................................    37

                                WITNESS
                        Tuesday, March 15, 2016

David Donahue, Principal Deputy Assistant Secretary for Consular 
  Affairs, U.S. Department of State..............................     4
Hon. Leon Rodriguez, Director, U.S. Citizenship and Immigration 
  Services, U.S. Department of Homeland Security.................     6
Hon. Sarah R. Saldana, Director, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............     8
Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................    10

                     Alphabetical List of Witnesses

Donahue, David:
    Testimony....................................................     4
    Prepared statement...........................................    39
Rodriguez, Hon. Leon:
    Testimony....................................................     6
    Prepared statement...........................................    49
Roth, Hon. John:
    Testimony....................................................    10
    Prepared statement...........................................    65
Saldana, Hon. Sarah R.:
    Testimony....................................................     8
    Prepared statement...........................................    54

                                APPENDIX

American Civil Liberties Union (ACLU) statement submitted for the 
  Record.........................................................    80
Response to post-hearing questions for the Record:
    Mr. Donahue..................................................    86
    Mr. Rodriguez................................................   122
    Ms. Saldana..................................................   169
    Mr. Roth.....................................................   192


                   THE SECURITY OF U.S. VISA PROGRAMS

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Sasse, 
Carper, Tester, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to, first of all, thank the witnesses for your time 
and your testimony and for appearing here before us today. We 
do have representatives from the State Department (DOS), the 
U.S. Citizenship and Immigration Services (USCIS), and the U.S. 
Immigration and Customs Enforcement (ICE). You will be hearing 
those acronyms. There are a lot of acronyms in this business. 
And then, we also have Mr. John Roth, the Inspector General 
(IG) for the U.S. Department of Homeland Security (DHS).
    This hearing is about the security of our U.S. visa systems 
and programs. I think the potential vulnerabilities came to 
light, certainly, in the public's awareness, with the attack on 
September 11, 2001 (9/11), and the fact that so many of the 
terrorists that killed so many Americans were here on student 
visas. And then, we also understood--or became aware of--the 
reality of visa overstays. So, we started understanding the 
vulnerabilities there.
    Back then, we, obviously, had the State Department involved 
in the acceptance and granting of visas, but we also had 
Immigration and Naturalization Service (INS). You basically had 
one agency.
    After 9/11, then we kind of took that apart and set up the 
Department of Homeland Security. Now, we have different 
agencies. And, I think it is legitimate to ask: Are these 
agencies working together? Do we have a shared purpose, a 
shared goal, and a shared mission to, literally, keep this 
Nation safe? Allow for travel and allow for commerce, but--at 
the heart of it--are we making sure we can do everything, in an 
imperfect world, to keep our Nation safe and secure?
    So, that is really my primary question and the main purpose 
of this hearing. Are we doing all that we can to screen and vet 
visa applicants before they enter the country? And, second, how 
effectively are Federal agencies managing their 
responsibilities and working together--including sharing 
information--through each step of the visa and immigration 
process to ensure our security?
    I would ask that my written opening remarks be entered into 
the record with consent.\1\ And, it has been very kindly 
granted.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    With that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER:

    Senator Carper. Thank you, Mr. Chairman. I want to welcome 
everybody. Thank you for holding the hearing. Thank you all for 
joining us. Three of the folks sitting in front of us are folks 
who came before us a year or two ago to be confirmed for 
confirmation hearings. And, we very much appreciate your 
service. And, that is not taking anything away from you, Mr. 
Donahue, but we do not have jurisdiction over the Department of 
State. We are working on it, but---- [Laughter.]
    We are not quite there yet.
    But, this hearing is the third in a series we have held to 
explore whether we are doing enough to address concerns that 
terrorists might try to exploit international travel to 
infiltrate our country.
    In the aftermath of the Paris terrorist attacks, this 
Committee first scrutinized the process in place to screen and 
vet Syrian refugees escaping from the carnage in the Middle 
East. And, we learned that the U.S. refugee resettlement 
process involves extensive security screening. Syrian refugees, 
we were told, undergo multiple rounds of screening over an 
average period of 18 to 24 months--including in-person 
interviews by immigration analysts and counterterrorism 
officials trained in spotting fraud and trained in spotting 
deception.
    The Committee next looked at our Visa Waiver Program (VWP), 
which allows citizens of certain nations to travel to the 
United States for a visit without a visa. And, once it became 
clear that the Paris terrorists held passports from European 
countries whose citizens enjoy visa waiver privileges, fears, 
understandably, arose that this program could pose a security 
threat.
    We learned that visa waiver travelers seeking to come to 
the United States endure nearly the same level of scrutiny and 
vetting as all other travelers. We also learned that, when it 
comes to security, nothing is being ``waived,'' as the name of 
the program incorrectly suggests. And, we learned that, in 
return for their entry into the Visa Waiver Program, 
countries--and there are about 38 of them--must share 
intelligence with the United States, they must open up their 
counterterrorism and aviation security systems to our 
inspectors, and they must abide by our standards for aviation 
and passport security.
    As a result, the Visa Waiver Program has now become a key 
counterterrorism tool. And, what started off as a travel 
facilitation program has ended up having enormous advantages to 
us, in terms of protecting our security.
    Today, we are going to continue to look at our screening 
systems for foreigners entering our country. We will examine 
the depth of security for all forms of visas--whether they 
happen to be for students, for tourists, for people here on 
business, or for those seeking to make America their permanent 
home.
    It is a daunting undertaking, given the volume of 
international travel to the United States. It also involves the 
coordination of multiple government entities, including the 
State Department, the Department of Homeland Security, and 
others that are not represented here today.
    Since the 9/11 attacks against our country, there have been 
notable changes to strengthen our visa security--including 
recent adjustments made following the attacks in Paris and, 
more recently, in San Bernardino. For example, amid the Islamic 
State of Iraq and Syria's (ISIS's) growing online presence, the 
Department of Homeland Security is exploring ways to expand its 
use of social media to screen travelers seeking to enter the 
United States.
    I look forward to hearing more about these efforts and also 
about the contribution of ICE's Visa Security Program (VSP) 
that may help to identify threats posed by potential travelers 
early on. We need to know if this program is adding real 
security and, if so, how to expand its reach.
    As with all of our recent hearings, I expect that we will 
find elements of our visa security that we can improve upon 
today--understanding that we can never eliminate all risks and 
should not turn our back on the many benefits of trade, travel, 
and immigration. Yet, as we continuously improve the security 
of our immigration system, we must also keep our eye on, 
perhaps, the even more pressing threat of homegrown terrorism.
    For all that we do to strengthen our borders and our 
immigration security, groups, like ISIS, know all too well that 
they may bypass our multiple layers of homeland security by 
using online propaganda to recruit people already inside of our 
borders--maybe born here--to carry out attacks against the 
United States. And, in this respect, preventing ISIS's twisted 
propaganda from mobilizing our young people to carry out 
terrorist violence may help to combat the long-term terrorist 
threats to the homeland in ways that aviation screening and 
watchlist checks can never do.
    We look forward to our continued work on this Committee, 
both on combating homegrown terrorism and on strengthening the 
security of our immigration systems. And, I hope we can use 
today's hearing to identify some common-sense improvements to 
the security of visas.
    Thank you all for being here. We look forward to this 
conversation. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Senator Tester can only be with us for a short period.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I will make this very short. And, thank 
you, Mr. Chairman. I very much appreciate the flexibility.
    The Visa Waiver Program, as the Chairman and the Ranking 
Member have pointed out--they are important programs--important 
for our economy--but, they are also of concern. In your opening 
statements, if you could address: the security of the programs 
you have, first; whether you need additional tools that you do 
not have that would require this Committee--or another 
committee--to take action, second; and the third thing is 
manpower. Do you have the manpower to carry out the job to make 
sure that our country is not threatened by the visa program we 
have now? If you can do that, you will have answered all of my 
questions.
    Thank you.
    Chairman Johnson. That was under a minute.
    It is the tradition of our Committee to swear in witnesses, 
so if you will all rise and raise your right hand. Do you swear 
that the testimony you will give before this Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Donahue. I do.
    Mr. Rodriguez. I do.
    Ms. Saldana. I do.
    Mr. Roth. I do.
    Chairman Johnson. Please be seated.
    Our first witness is David Donahue. He is the Principal 
Deputy Assistant Secretary for Consular Affairs at the U.S. 
Department of State. Mr. Donahue has also served as Deputy 
Assistant Secretary of State for Visa Services in the Bureau of 
Consular Affairs and as Coordinator for Interagency Provincial 
Affairs at the U.S. Embassy in Kabul, Afghanistan. Secretary 
Donahue.

   TESTIMONY OF DAVID DONAHUE,\1\ PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY FOR CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Donahue. Good morning, Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee. Thank you 
for the opportunity to testify, today, on the topic of U.S. 
visa program security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Donahue appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    The Department of State and our partner agencies throughout 
the Federal Government take our commitment to protect American 
borders and citizens seriously. And, we constantly analyze and 
update our clearance procedures. My written statement, which I 
request be put into the record, describes the rigorous 
screening regimen that applies to all visa categories.
    Let me begin by saying that the visa program is a layered, 
interagency program focused on national security, beginning 
with the petition to USCIS, my colleagues here, or a visa 
application submitted directly to a consular section abroad. 
During the interview, prior to travel, upon arrival in the 
United States, and while the traveler is in the United States, 
our national law enforcement and intelligence communities work 
together to protect our borders. The vast majority of visa 
applicants--and all immigrants and fiance visa applicants--are 
interviewed by a consular officer. Each consular officer 
completes extensive training, which has a strong emphasis on 
border security, fraud prevention, interagency coordination, 
and interviewing techniques.
    One hundred and twenty-two diplomatic security assistant 
regional security officer investigators at 107 posts worldwide 
bring additional law enforcement and anti-terrorism expertise 
to the visa process. All of this applicant data is vetted 
against databases--including terrorist identity databases that 
contain millions of records of individuals found ineligible for 
visas or regarding whom potentially derogatory information 
exists.
    We collect 10 fingerprint scans from nearly all visa 
applicants and screen them against DHS and the Federal Bureau 
of Investigation (FBI) databases of known and suspected 
terrorists, wanted persons, immigration violators, and 
criminals. All visa applicants are screened against photos of 
known and suspected terrorists or prior visa applicants.
    When an interview raises concerns that an applicant may be 
a threat to national security or when the interagency screening 
process shows potentially disqualifying derogatory information, 
the consular officer suspends processing and submits a request 
for a Washington-based interagency security advisory opinion 
review conducted by Federal law enforcement, intelligence 
agencies, and the Department of State.
    The Department of Homeland Security's Pre-Adjudicated 
Threat Recognition and Intelligence Operations Team (PATRIOT) 
program and Visa Security Program, managed by our USCIS 
colleagues or ICE colleagues, provide additional protections in 
certain overseas posts. DHS Immigration and Customs Enforcement 
special agents, who are assigned to more than 20 embassies and 
consulates in high-threat locations, provide on-site vetting of 
visa applications as well as other law enforcement support and 
training for our officers.
    Security reviews do not stop when the visa is issued. The 
Department and the partner agency continuously match new threat 
information with our record of existing visas and will use our 
authority to revoke visas.
    We refuse more than a million applications a year for 
visas. Since 2001, the Department has revoked more than 122,000 
visas based on information that surfaced after issuance of the 
visas. This includes nearly 10,000 revoked for suspected links 
to terrorism, again, based on information that surfaced after 
issuance. Notice of these revocations is shared across the 
interagency in near real time.
    I noticed that you also wanted to talk about our view of 
the security of the VWP. While that is managed by the 
Department of Homeland Security, we believe that it does really 
enhance our national security. It allows us to focus on those 
places--to have the staffing and the resources in places where 
we really do need to look deeply into the threat from 
travelers. It also provides, as was mentioned by Senator 
Carper, these cooperative agreements with the nations that are 
sending these travelers to the United States. Therefore, we 
have better access and a better understanding of the threats 
they are seeing. They are sharing with us and we are sharing 
with them. An advanced stage of that, while it is not part of 
the Visa Waiver Program, is in Canada, where we have a very 
close relationship in sharing derogatory information back and 
forth across the border to make sure we have a strong outer 
border for the United States.
    Mr. Chairman and distinguished Members of the Committee, 
the Department of State has no higher priority than the safety 
of our fellow citizens at home and overseas as well as the 
security of the traveling public. Every visa decision is a 
national security decision. We appreciate the support that 
Congress has given us as we constantly work to strengthen our 
defenses. I encourage you, when you are traveling overseas, to 
visit our consular sections to see, firsthand, the good work 
that our officers are doing around the world. I look forward to 
your questions.
    Chairman Johnson. Thank you, Secretary Donahue.
    Our next witness is Leon Rodriguez. Mr. Rodriguez is the 
Director of U.S. Citizenship and Immigration Services at the 
U.S. Department of Homeland Security. Prior to this position, 
Mr. Rodriguez served as the Director of the Office for Civil 
Rights (OCR) at the Department of Health and Human Services 
(HHS) and as the Deputy Assistant Attorney General (AAG) for 
Civil Rights at the Department of Justice (DOJ). Director 
Rodriguez.

 TESTIMONY OF THE HONORABLE LEON RODRIGUEZ,\1\ DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Rodriguez. Good morning, Chairman, good morning, 
Ranking Member, and good morning, Members of the Committee. 
This is my second time before this Committee to talk about this 
subject matter and the seventh time that I have testified 
before some Congressional committee in this fiscal year (FY) on 
this subject matter. I should hasten to say that this Committee 
has become one of my favorites, particularly because the level 
of discourse has always been a civil and intelligent one--not 
that the questions are easy. I think the questions we are asked 
are hard questions that we need to be able to answer for the 
benefit of the American people--but I really do appreciate the 
tone that you both have set here. Thank you for that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rodriguez appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    I believe, as an article of faith, that a healthy and 
robust immigration and travel system is critical to our 
economy, critical to the stability of our families, and 
critical, actually, to the successful conduct of our foreign 
policy and national security.
    I also believe that the most fundamental responsibility of 
government is to protect the public safety. I have spent a fair 
part of my career working at the local level and have learned 
that every time that we issue a driver's license, we need to 
make sure that we are not issuing that license to someone who 
may become a drunk driver. Every time we issue a building 
permit, we need to ensure that that is not a building that will 
collapse. And, every time we issue some sort of immigration 
benefit, we need to do everything we can to ensure the security 
of our country and to ensure that those who mean us harm or who 
will become threats to our public safety do not exploit the 
immigration system.
    In particular, USCIS, my agency, bears responsibility for 
screening refugees who are seeking admission to the United 
States. Since 9/11, we have admitted nearly 790,000 refugees--
and I would hasten to add that about 120,000 of those have come 
from Iraq. In that time, not a single admitted refugee has 
actually engaged in an act of terrorist violence against the 
United States. There have been a number--a relatively small 
number--of terrorist plots or attempts to affiliate with 
terrorist organizations that have been successfully disrupted 
by United States law enforcement.
    The reason why we have been successful is the robust 
screening process that already exists to screen those who are 
coming to the United States. It is a multi-layered process 
involving a multitude of Cabinet agencies, law enforcement 
agencies, and intelligence agencies. It involves intensive 
interviews conducted by several agencies, in particular by my 
officers, who are intensively trained and briefed to do the 
work that they do.
    Nonetheless, recognizing evolving threats--particularly 
those posed by lone wolves inspired by terrorist 
organizations--we continue to look for opportunities to 
intensify and strengthen the quality of the work that we do.
    An area of particular recent focus has been our review of 
social media--particularly of those seeking admission as 
refugees--in order to determine whether there is any derogatory 
information contained therein. We have undertaken, 
simultaneously, several pilots to identify automated tools and 
processes which will further enable us to do this work. But, we 
have not waited for the conclusion of those pilots to, in fact, 
begin actively using that as part of our work. And, in those 
cases where individuals have been flagged as of concern, being 
particularly among certain refugee streams, we have already 
been analyzing social media to determine whether any such 
information exists. We will continue to add capacity in this 
area. We will continue to strengthen our ability to do that. 
And, we will add more volume based on our assessment and our 
intelligence community (IC) partners' assessment of where the 
highest levels of risk are.
    Now, to respond in particular to your question, Senator 
Tester, we are working to get to the point where we actually 
can answer your question--where we can identify the resources 
and personnel that we need. Needless to say, our agency is a 
fee-funded agency, so the majority of this work is actually 
funded by our fee-paying customers. But, a lot of that work is 
also done in concert with various tax-based partners in the law 
enforcement and intelligence communities--and we will be 
looking forward to a further conversation should we identify 
needs as we develop these processes.
    Finally, I look forward to addressing the concerns raised 
in the IG's report. I would like to note a couple of particular 
findings. First, 93 percent of our customers in the early going 
of our I-90--that is, our replacement green card--launch 
reported that they were quite satisfied with the service that 
we provided. I would also like to note that the IG recognizes 
that, after July 2015, the conclusion of the audit window, we 
undertook a number of improvements. And, what I would ask is 
both for the IG to come back, but also to be able to engage 
with this Committee about those improvements, so that we can 
give you the confidence that, in fact, our automation process 
is successful and is poised for even greater success in the 
future.
    Thank you again for having me here today.
    Chairman Johnson. Thank you, Director Rodriguez.
    Our next witness is Director Sarah Saldana. Director 
Saldana is the Director of the U.S. Immigration and Customs 
Enforcement at the U.S. Department of Homeland Security. 
Director Saldana previously served as United States Attorney 
for the Northern District of Texas. Director Saldana.

TESTIMONY OF THE HONORABLE SARAH R. SALDANA,\1\ DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Saldana. Thank you. Good morning, Chairman Johnson, 
Ranking Member Carper, and other Members of this Committee. 
Senator Tester, I am still having nightmares from seeing that--
was it a buffalo or a bison?--the head in your office. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Saldana appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    I am sure I will get over it.
    I will say, in all seriousness, that I appreciate the 
opportunity to talk, today, about this very important subject. 
I absolutely agree with my colleagues here, with respect to the 
importance of this issue and these issues. I appreciate what we 
will hear from the Inspector General, with respect to our 
programs and the improvements that are recommended--and, 
obviously, to your questions and suggestions, with respect to 
how we can do our jobs better.
    As you know, Congress authorized our role in this process 
back in 2002, where we were told, first, to assign agents in 
diplomatic posts to review visa security activities and, 
second, to provide training and other assistance to our State 
Department colleagues. This effort is led by the investigative 
side of Immigration and Customs Enforcement: Homeland Security 
Investigations (HSI), with the involvement of our Enforcement 
and Removal Operations (ERO) folks, and it is accomplished 
through the program that has been referred to as the Visa 
Security Program.
    Under this program, we have analysts and agents working at 
26 visa-issuing posts in 20 countries to identify terrorists, 
criminals, and other individuals who are ineligible for visas 
prior to their travel or application for admission to the 
United States. This fits right in with ICE's larger 
responsibility to detect, disrupt, and dismantle transnational 
criminal organizations. But, in the visa security context, 
obviously, we are trying to stop threats--deter threats--before 
they reach our nation's borders.
    As a result of the additional Ccongressional funding in FY 
2015, for which we are very thankful, ICE was able to expand 
VSP operations to six new issuing posts--the largest expansion 
in the program's history. We are looking forward to adding four 
more posts before the end of this fiscal year.
    As my colleagues have said, the process begins and ends, 
obviously, with the Department of State, along with the 
significant involvement of USCIS. But, this process also 
presents the first opportunity to assess whether a potential 
visitor or immigrant poses a threat to our country--and that is 
where ICE comes in--our law enforcement folks. ICE's actions 
complement the consular officers' screenings, applicant 
interviews, and reviews of applications and supporting 
documentation.
    PATRIOT, which the Principal Deputy Assistant Secretary 
just mentioned, begins our visa screening mission by conducting 
a first take--an automated screening of visa application 
information against our vast DHS holdings--all of the 
information we have, not only from DHS agencies, but from the 
intelligence community as well. This step occurs before the 
applicant is even interviewed for the first time. PATRIOT takes 
a risk-based approach and uses interagency resources from ICE, 
U.S. Customs and Border Protection (CBP), and the State 
Department to identify potential national security and public 
safety threats.
    Where VSP differs from most other government screening 
efforts is that it leverages the fact that we have agents 
posted at those visa-screening sites--at the visa sites that 
the State Department has--and those agents are able to 
investigate the information that comes up in the applications--
to actually supplement the Department of State's interviews of 
those applicants and to identify previously unknown threats. 
So, we are very pleased to have those people actually onsite in 
those 20 different countries.
    In FY 2015, VSP--our agents--reviewed over 2 million visa 
applications--over 2 million--and we determined they identified 
64,000 of them for further review. This is a flag that goes up 
that, perhaps, something there is indicating something to the 
agent, who is very well trained and versed in intelligence and 
criminal activity as well as other derogatory information.
    After in-depth vetting, the next step, we determined the 
existence of a little over 7,000 of 23,000 cases in which we 
saw derogatory information to have some nexus to terrorism, 
resulting in our recommendation to the Department of State to 
refuse visas to approximately 8,600 individuals last year. 
Approximately 850 terrorist database records were created or 
enhanced. That is the other complement to this mission--and 
that is, the intelligence gathering that we are able to do 
through our in-depth vetting and screening.
    While I am extremely proud of what our ICE personnel do to 
screen the visa applicants on the front side, we also actively 
work to identify and initiate action against overstay 
violators, which Senator Johnson mentioned earlier. This 
vetting helps to determine if an individual has overstayed or 
departed the U.S. In the last 2 years, ICE has dedicated 
approximately 650,000 special agent hours a year to overstay 
enforcement.
    ICE prioritizes immigrant overstay cases using risk-based 
analysis through our Counterterrorism and Criminal Exploitation 
Unit (CTCEU). The CTCEU reviews many leads and further 
investigates them, referring them to others on the ERO side if 
we are unable to do anything with them on the investigative 
side.
    We are very proud to include both sides of our house in 
this effort. I believe we have actually, as a side note, 
increased the investigative responsibilities of our ERO folks. 
I look forward to working with this Committee and with our 
Appropriations Committee to discuss some pay reform with 
respect to our entire ICE workforce. And, I stand ready to 
answer any questions you may have.
    Chairman Johnson. Thank you, Director Saldana.
    Our final witness is Inspector General John Roth, who is 
the Inspector General for the U.S. Department of Homeland 
Security. Mr. Roth most recently served as the Director of the 
Office of Criminal Investigations (OCI) at the Food and Drug 
Administration (FDA). Prior to this, he had a 25-year career as 
a Federal prosecutor and senior leader at the Department of 
Justice. Inspector General Roth.

  TESTIMONY OF THE HONORABLE JOHN ROTH,\1\ INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you. Chairman Johnson, Ranking Member 
Carper, and Members of this Committee, thank you for inviting 
me here, today, to discuss my office's oversight of DHS visa 
programs. Our recent work has involved a number of audits and 
investigations, and I will discuss some of our audit results 
this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roth appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Deciding and administering immigration benefits, including 
visas, is a massive enterprise. USCIS employs about 19,000 
people to process millions of applications for immigration 
benefits. They are required to enforce what are, sometimes, 
highly complex laws, regulations, and internal policies that 
can be subject to differing interpretations. They are rightly 
expected to process decisions within a reasonable timeframe. 
USCIS and the rest of DHS accomplish their mission while 
working with an antiquated system of paper-based files more 
suited to an office environment from 1950 than 2016. This 
system creates inefficiencies and risks to the program. To give 
you an idea of the scope of the problem, USCIS spends more than 
$300 million per year shipping, storing, and handling over 20 
million immigrant files.
    This week, we published our sixth report on USCIS' efforts 
to transform its paper-based processes into an integrated and 
automated system.
    We undertook this audit to answer a relatively simple 
question: After 11 years and considerable expense, what has 
been the outcome of USCIS' efforts to automate benefits 
processing? We focused on the progress that was made and the 
performance outcomes. We interviewed dozens of individuals, 
including by traveling to the local field locations and talking 
to over 60 end users who are using Electronic Immigration 
System (ELIS). And, we literally stood next to them and watched 
as they struggled with the system.
    We found that USCIS has made little progress in 
transforming its paper-based process into an automated system. 
Previous efforts, which have cost approximately $500 million to 
implement, had to be abandoned, recently, in favor of a new 
system. USCIS now estimates that it will take more than 3 years 
and an additional $1 billion to automate benefit processing. 
This delay will prevent USCIS from achieving its workload 
processing, national security, and customer service goals. 
Currently, only 2 of about 90 different types of application 
forms are online for filing.
    We found, for example, that the time to process immigration 
benefits was twice that of the metrics that USCIS had 
established. Our earlier report on USCIS information technology 
(IT) systems, published in July 2014, reported that using the 
electronic files in use at the time actually took twice as long 
as using paper files. That report reflected user 
dissatisfaction with a system that often took between 100 and 
150 mouse clicks to move among sub-levels to complete a 
specific process.
    As Director Rodriguez said, we acknowledge that DHS has 
recently taken significant steps to improve the process by 
which new information technology--including moving from a 
traditional development methodology to a new incremental 
approach, called Agile, will assist. Implementation of 
automation is very much a moving target, and USCIS may have 
subsequently made progress on the problem since the time our 
field work ended in July 2015. We will obviously continue to 
monitor the situation and report back to the Committee as 
necessary.
    Separately, in a second, earlier audit, we compared 
databases belonging to ICE and to USCIS and found that known 
human traffickers were using work, fiance, and other family 
reunification visas to bring their victims into the country. An 
important finding we made is that the data systems that USCIS 
uses do not electronically capture important information which 
would be valuable in investigating human trafficking. Again, 
this poses risks to the system. We made three recommendations 
to improve these programs. ICE and USCIS are taking actions to 
resolve these recommendations and we are satisfied with their 
progress thus far.
    Finally, corrupt and criminal activity on the part of DHS 
personnel can present a risk to the integrity of the visa 
process. My written testimony illustrates several examples in 
which employees or contractors, who are in a position of trust, 
were able to compromise the system to provide immigration 
benefits to those who are not entitled to them. This type of 
insider threat presents significant risks that can only be 
countered through continual vigilance.
    In summary, the size and complexity of the mission, coupled 
with an archaic method of processing applications, brings 
significant risk. There is risk to operations in that it makes 
it more difficult for USCIS to accomplish its mission. There is 
also risk to our national security in that we may be admitting 
individuals who do not meet the requirements for a visa. Basic 
information on visa applicants is not captured in an electronic 
format and, thus, cannot be used to perform basic investigative 
steps.
    Mr. Chairman, this concludes my prepared statement. I am 
happy to answer any questions that you or other Members of the 
Committee may have.
    Chairman Johnson. Thank you, Mr. Roth.
    In my opening comments, I was talking a little bit about 
missions--the goals of the different agencies. In this 
Committee we have a pretty simple one: to enhance the economic 
and national security of America. Pretty all-encompassing. I 
think a problem we have, in terms of our visa programs, is that 
you, literally, have the tension of conflicting goals. We want 
to facilitate travel, commerce, and customer service, as 
Director Rodriguez was talking about. On the other hand, we 
want to ensure the security of our homeland and keep Americans 
safe. There is tension there.
    So, I want to first go to Director Rodriguez. Does your 
agency have a pretty simple mission statement like this 
Committee does? And, can you tell us what it is?
    Mr. Rodriguez. We have a number of different ways, but, 
certainly, I have been very clear with our staff--in 
communications to the entire staff that, in fact, to articulate 
a set of simple principles--and that is, where an individual 
qualifies for an immigration benefit, they should get that 
benefit in an efficient and appropriate manner, subject to, 
first and foremost, national security and fraud prevention. 
That is a key element of our draft strategic plan--subject, 
again, to the legal requirements that I mentioned before and 
subject to operational feasibility of whatever initiatives we 
are taking.
    Chairman Johnson. But, just the way you describe that, the 
first thing you talked about was providing benefits to your 
customer. So, I guess, the way I would interpret that is that 
that is really the first part of your mission--customer 
service, providing benefits to immigrants to this country, 
again, subject to security.
    Mr. Rodriguez. Right. And, subject to, and in no small way, 
to be given to national security and public safety. In other 
words, our staff clearly understands this, which is evidenced 
by the fact that roughly 900 of our staff members are, 
specifically, dedicated to the Fraud Detection and National 
Security Directorate (FDNS)--that if an individual poses a 
threat, they are denied the benefit--to be very clear about 
that.
    Chairman Johnson. Director Saldana, do you have a 
relatively simple mission statement for your Agency?
    Ms. Saldana. It is comparable to this Committee's, and that 
is: to ensure the national security and public safety of our 
country through the enforcement of immigration and customs 
laws. Huge. Over 400 statutes are implicated by that, but we 
are game.
    Chairman Johnson. It is a big mission. It is a serious 
undertaking. The results of 9/11 and the National Commission on 
Terrorist Attacks Upon the United States 9/11 Commission, and 
what they were talking about--the stovepipes--that continues to 
be a concern of mine. So, you have these cross-purposes. You 
have two different agencies now split--and I think you were 
always somewhat split under INS as well. But, I am concerned 
about that.
    Director Rodriguez, are you aware of what happened at the 
USCIS office in San Bernardino on December 3 following the San 
Bernardino attack? Are you aware of the events that occurred 
there?
    Mr. Rodriguez. At the USCIS office in San Bernardino.
    Chairman Johnson. In San Bernardino.
    Mr. Rodriguez. I am not, honestly. No, I am not aware that 
anything occurred at our office.
    Chairman Johnson. Director Saldana, are you aware of it?
    Ms. Saldana. I think you are referring to our HSI office, 
Senator Johnson.
    Chairman Johnson. Correct.
    Ms. Saldana. The subject of a letter that you have sent, I 
believe, to the Secretary of Homeland Security, which has been 
sent to me for response. I am aware of it.
    Chairman Johnson. Can you describe what happened from the 
standpoint--because HSI is under your jurisdiction. Can you 
just describe, from your standpoint, what you are aware of with 
respect to that incident?
    Ms. Saldana. Well, with respect to the whole San Bernardino 
incident----
    Chairman Johnson. No. I am just talking about your HSI 
agents showing up at the office of USCIS because they were made 
aware of the fact that Enrique Marquez was, potentially, there 
for an interview the day after the San Bernardino attack. You 
are not aware of that?
    Ms. Saldana. That I am not aware of. He showed up at USCIS?
    Mr. Rodriguez. Yes, Senator, now I am remembering the 
incident. I believe, if I understand correctly, there was a 
concern about the manner in which we were providing information 
about the individuals involved in the attack to HSI. In fact, 
the intent all along among our staff was to provide that 
information. It was just a matter of completing a very short 
process.
    Chairman Johnson. So, let me just describe--this is from an 
internal memo written by somebody who contacted our Committee. 
``At approximately 12:00 p.m. on December 3, the FBI informed 
HSI and the Joint Terrorism Task Force (JTTF) that FBI field 
interview agents learned that Marquez and his wife, Maria 
Chernykh, were scheduled for a meeting at the U.S. Citizenship 
and Immigration Services office in San Bernardino for noon on 
December 3. HSI contacted the HSI special agent division 
requesting a team of armed agents to respond to the San 
Bernardino USCIS office in order to detain Marquez until an FBI 
interview team could be dispatched. The special agent division 
informed the HSI team that the officer in charge of USCIS would 
not let HSI agents in the building.''
    So, HSI had a special team show up trying to, potentially, 
apprehend somebody who, at that point in time, they thought 
might have been a part of a terrorist plot, and the officer in 
charge of the USCIS office would not allow those agents in the 
building.
    ``The special agent division learned that Marquez and 
Chernykh did not show up for the meeting. The special agent 
division requested copies of the Alien Registration File (A 
File), which USCIS refused. The special agent division was 
allowed to take a photo of Chernykh's photo, which was 
contained in that A file.''
    So, what happened on December 3--and this is kind of 
getting me to the cross-purposes. So, we had a team, armed up 
and, potentially, dealing with a terrorist. They had a tip from 
the FBI that Mr. Marquez might be at the USCIS office and the 
officer in charge of USCIS--the officers would not allow HSI 
into the building and would not give them the A file. That is 
not indicating a great deal of cooperation between two 
different agencies under DHS, whose supposedly top concern is 
the security of this Nation. Director Rodriguez, can you 
explain that?
    By the way, we have been told during the gathering of 
information process that the decision not to let HSI in came 
from higher up.
    Mr. Rodriguez. That much is not correct, in the sense that, 
once field leadership had consulted with higher-ups, the 
instruction was, in fact, to facilitate the actions that HSI 
wanted to take. Unfortunately, this was all--as these 
situations do--evolving very quickly. Ordinarily, we do not 
have situations where law enforcement comes into a USCIS office 
to effect an arrest.
    Chairman Johnson. But, how can you explain that the officer 
in charge of USCIS would not allow HSI agents in there when 
they are saying, ``Listen, you could have a potential terrorist 
here-- somebody who was involved in what just happened 
yesterday, in the slaughter of 14 Americans.'' And, they do not 
even allow them in the office? How could that possibly happen?
    Mr. Rodriguez. Again, Chairman, I think the point here is 
that we operate according to certain protocols. That individual 
was seeking guidance from higher-ups. The guidance was to 
facilitate what HSI was trying to accomplish. Unfortunately, it 
all happened so quickly that it was, incorrectly, perceived as 
our folks trying to, in some way, obstruct what ICE was trying 
to do.
    Do we need to look at our protocols to make sure that those 
misunderstandings do not occur? That may well be something that 
we need to do. But, there was never an actual intent to prevent 
them from doing what they needed to do.
    Chairman Johnson. It sounds like they were prevented.
    Director Saldana, can you explain this? And, what do you 
now know about it with, maybe, your memory refreshed?
    Ms. Saldana. I will say, in all honesty, Senator, that I 
had a similar reaction when I first heard about the incident. 
But, we do forget the number of law enforcement and other 
people involved in this incident and the confusion and the 
chaos that was going on in San Bernardino. We had immediate 
conversations when it came to my attention--and I am having a 
hard time, right now, remembering exactly. I believe it was the 
same day, and it was taken care of and clarified immediately. 
And, we did get the information we needed.
    But, I am with the Director. We can always do things 
better. And, if we do not, as I tell my son, learn lessons from 
the mistakes we make, then shame on us. But, I believe--he and 
I meet very often.
    Chairman Johnson. Coming from the private sector--I am just 
putting myself in the position of individuals at USCIS. The day 
after a terrorist attack, if I had a team, armed, coming into 
my office and saying, ``We believe somebody who was involved in 
that terrorist incident is in your building, we want to come 
in,'' I would say, ``Come on in.'' There would not have been a 
question in my mind. And, yet that is not what happened. It is 
quite puzzling. Senator Carper.
    Senator Carper. My first question is for you, Ms. Saldana. 
Over your right shoulder is a gentleman sitting in the crowd 
right behind you--in the row right behind you. He looks very 
familiar--right over your right shoulder in the front row. It 
looks like his first name might be Jason, and I think he used 
to work here. He used to sit right behind us here on this dais.
    Ms. Saldana. We have spent a lot of time together.
    Senator Carper. It is nice to see you, Jason. Welcome back. 
Thank you for your service.
    A couple of you alluded to one of my favorite aphorisms, 
that, if it is not perfect, make it better. And, one of those 
is how we move from a paper process to an electronic process. 
And, I think the Inspector General and, I think, Mr. Rodriguez 
both have touched on this--and the IG talked about a project 
that was abandoned, maybe, within the last year--I think after 
an investment of, I think you said, $500 million--and you 
thought that there had been some progress since the July 2015 
audit. And, I heard the word ``Agile'' mentioned, a term 
describing something. Just help and make some sense of it for 
me. I think we know that, to the extent that we can take a 
paperwork process--paper processes and make them electronic, 
oftentimes that provides better service and better security. 
How would this have done that? Where did we go wrong? And, how 
are we fixing it now? Mr. Rodriguez, lead us off.
    Mr. Rodriguez. Yes. So, the question is first to me. Is 
that correct, Senator?
    Senator Carper. Please.
    Mr. Rodriguez. I think it is well known to just about 
everybody here, including this Committee, that, in fact, there 
were a number of quite serious and quite protracted false 
starts with respect to our automation process. We were using 
what was sort of an antiquated development process, the 
Waterfall development process, which was directed by an outside 
entity. We have since migrated to this Agile process, which, 
essentially, involves multiple contractors competing against 
each other and also shrinks the development steps in such a way 
that we can develop a particular item, test it, try it out in 
the field, make corrections as we need to, and then move on to 
the next item--instead of trying to do everything all at once.
    To understand the timelines here, the first generation was 
the Waterfall generation. There was a second generation called 
ELIS. We began, really, the third generation, live, in March of 
last year, which, in other words, was about a month before the 
Inspector General's audit began. We launched the I-90, which is 
our replacement Green Card. That, already, incorporates a 
number of critical functionalities, which are then going to be 
used for other applications in the future. We have now 
processed approximately 300,000 I-90 applications through there 
and we have also added the Immigrant Visa (IV) payment since 
that time.
    So, we now have, approximately, 16 percent of our overall 
business on ELIS. What we have done so far, certainly, from a 
customer perspective, is working quite well. A number of the 
concerns that our internal employees had either reflected the 
older generation of ELIS or are things that reflected that 
early time when we first launched the I-90 application. Many of 
those issues have since been, not only resolved, but resolved 
well. Again, that is why I would like to invite the IG to come 
back and to invite the Committee to scrutinize further what we 
are doing.
    By the end of this year, we will have 30 percent of the 
business on ELIS, including some of our most complex forms. 
And, this is where----
    Senator Carper. I am going to ask you to hold it right 
there because I have some other questions. But, thank you for 
that explanation.
    Inspector General Roth, a quick reaction to what you are 
hearing from Leon Redbone--excuse me, Leon Rodriguez. 
[Laughter.]
    That is my favorite nickname for him.
    Mr. Roth. I mean, certainly, what we simply did was we went 
out to where the work is being done and we talked to the USCIS 
employees who were actually confronted with the system that 
they had. And, the level of frustration, which is reflected by 
the glitches and the hiccups in the rollout of the ELIS report, 
were significant. And, we were able to isolate that and to 
uncover a few root causes, including that there was a lack of 
user engagement--that is, the folks in the field did not 
particularly feel that they were being engaged and listened to 
in the development of the software. Second, that the testing 
was not done on an end-to-end basis--in other words, that the 
testing of certain elements of the software was done 
sporadically--but it was not done in a complete way. And, 
third, that the technical support was lacking.
    Now, the Agile development process means that you put out a 
minimum viable product and then you improve that product as you 
go. You basically fix the car while it is running, to use an 
analogy. Here, we thought that the testing, though, was 
insufficient, that the rollout was too soon, and that the user 
experience--the folks who were actually using it were highly 
frustrated with the system.
    Those issues--that is, user engagement, testing, and 
technical support--were the same things that we had seen in the 
previous version of ELIS--the $500 million one that ultimately 
had to be scrapped.
    Senator Carper. Alright. Mr. Rodriguez has extended an 
invitation for your folks to come back and revisit them. I 
would urge you to do that and to do it soon.
    Mr. Roth. That is part of our audit process. We will, 
obviously, continue to sort of monitor this situation. We have 
made specific recommendations--some of which they have agreed 
with and some of which they have not--and we will continue to 
monitor and report as appropriate.
    Senator Carper. OK. Good. We will continue to monitor this. 
Thank you for the update.
    Director Saldana and Mr. Donahue, how do your agencies use 
social media when you vet and screen visa applicants? And, what 
challenges have you encountered in doing so?
    Ms. Saldana. I will begin with our portion of the 
responsibility here with respect to the vetting and screening. 
We are, first and foremost, a law enforcement agency--and HSI 
is an investigative agency. In all of our investigations and 
reviews, we use social media to the extent that the evidence 
leads us there.
    So, in the visa screening process, in particular, there is 
no bar to our use of it. There are occasions where we do. As I 
mentioned, we go through PATRIOT first. There is a preliminary 
assessment as to whether there are some indicators for further 
review. Where there is further review, we might actually use 
social media--review a person's social media in order to 
determine whether we should have a further study or whether we 
should recommend a negative result to the Department of State.
    So, we have that under our current authorities--and we have 
no problem using it when the case indicates we need to.
    Senator Carper. Alright. Mr. Donahue--same question. How do 
your folks use social media when you vet and screen visa 
applicants? And, what challenges have you encountered as you do 
that?
    Mr. Donahue. Sure. In Consular Affairs, we have used social 
media for a while. We have it in our regulations. In fact, we 
just updated our social media regulations. We use it when we 
see that there is a reason to look further into the case. We 
are now doing a pilot program in countries of concern to find 
out how effective it can be. It is a studied program where we 
are using social media on our IR1--our immigrant visa for 
spouses--and our K cases to see what kind of especially 
terrorist-related information we can find in the process. We do 
not have the results yet, but we have used it for a long time 
on the fraud side of the house.
    Senator Carper. OK. Thank you everyone.
    Chairman Johnson. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Mr. Chairman.
    Director Saldana, in January, 21-year-old Sarah Root was 
killed in Omaha by an illegal alien named Eswin Mejia. He was 
street driving while drunk. This is not the first time that 
local police had arrested Mr. Mejia for driving drunk. And, 
after he was arrested for the incident, he posted bail. Prior 
to being released from jail, however, local police contacted 
ICE and requested that he be detained because of his 
immigration status. ICE, however, refused and said that that 
would not be consistent with the President's Executive Actions 
on immigration. Mejia was released and disappeared.
    Do you think someone who street races while driving drunk 
and kills another person is a threat to public safety?
    Ms. Saldana. Yes.
    Senator Sasse. If an illegal alien kills an American 
citizen, should ICE let that person go free?
    Ms. Saldana. Go free? Well, there will be----
    Senator Sasse. Which is what happened here.
    Ms. Saldana. There will be criminal consequences.
    Senator Sasse. We do not know where the man is.
    Ms. Saldana. Right. And, sir, I do not understand where you 
got the information, with respect to our refusing to deal with 
this individual. That is not my understanding of the facts.
    Senator Sasse. This is ICE's public comment. ICE has said 
this in response to Omaha law enforcement, who said they 
requested that ICE detain him.
    Ms. Saldana. I am ICE and I do not recall making that 
statement. I would not have said that. What we did do was--we 
look at every individual case, like we did here with Mr. Mejia, 
and we determine whether a detainer to recommend to local law 
enforcement is appropriate. As you know, that has been a 
subject of much conversation. We are working very hard to get 
all local law enforcement offices to work with us on it--and we 
have made some great strides. But, in this case--there is not a 
single injury or death that occurs at the hands of an illegal 
immigrant that does not weigh heavily on me, Senator.
    Senator Sasse. I believe that. I am going to interrupt 
because I am quoting your agency here. This is my letter to 
you, dated February 29. I am quoting your Agency's public 
statement. This is footnote 4 in my letter. Do you have the 
letter from February 29? Your agency said in response, ``At the 
time of his January 2016 arrest in Omaha--and local criminal 
charges, Eswin Mejia, 19, of Honduras, did not meet ICE's 
enforcement priorities, as stated by the November 20, 2014 
civil enforcement memo issued by Secretary Johnson.''
    Ms. Saldana. Oh, I understood you to be saying that we told 
local law enforcement we were not going to do anything about 
him because he did not meet our priorities. That is a statement 
of fact in one person's interpretation. Quite frankly, sir, it 
is very easy to look back and say that that person's judgment 
was incorrect--and I have some concerns about that.
    As I said earlier, for every situation we have that results 
in something as horrific as this, we always try to learn from 
it. And, I will be following up to look at the specific 
individuals involved, how the judgment was formed, and why that 
was done. But, I misunderstood your question. I understood your 
question to mean that we told law enforcement that we are not 
going to do that.
    Senator Sasse. Well, the rest of your statement says--your 
Agency's statement, not you personally--that Mejia is scheduled 
to go before an immigration judge on March 23, 2017--but he was 
released by the police once he posted bail. They contacted your 
agency and asked you to detain him. ICE did not act. How do you 
explain that to the family?
    Ms. Saldana. We tried to act, sir, but I believe it was a 
matter of hours between the time that we were contacted and the 
actual release. It is very hard for us to get to every inquiry 
that is made by law enforcement, and, unfortunately, it had a 
horrible consequence here. But, we try very hard to respond as 
quickly as possible. We just cannot get to every site within a 
matter of hours. I think it was 4 hours, if I am not----
    Senator Sasse. I do not know that fact.
    Ms. Saldana. If I am remembering correctly. But, that is a 
fact--that we try very hard to get to and to respond to local 
law enforcement. It does not do us any good to tell them to 
cooperate with us if we are not going to respond.
    Senator Sasse. My letter to you is from 16 days ago. Can 
you tell me when I will receive a reply? Because it has details 
on all of these questions.
    Ms. Saldana. Yes, I think we will get you a reply within a 
couple of weeks--if that is satisfactory. And, if you need it 
sooner, I will certainly work to try to get that.
    Senator Sasse. Could we have that by the end of next week?
    Ms. Saldana. Yes, you can.
    Senator Sasse. Thank you, ma'am.
    General Roth, in November 2014, Secretary Johnson issued a 
number of memos changing DHS's policies on immigration known 
collectively as ``the President's immigration Executive 
Aactions.'' One of these memos addressed changes to ICE's 
detention policy for illegal aliens. DHS said in that memo that 
it was designed to identify threats to public safety. 
Specifically, it says that, unless an illegal alien has been 
charged with a serious crime, ICE will not likely detain that 
person. Does this policy mean that ICE does not consider 
someone a threat to public safety unless they have already been 
convicted?
    Mr. Roth. Frankly, I was not involved in writing that memo 
or in developing that policy, so it is difficult for me to 
respond to that.
    Senator Sasse. To your knowledge, though, are ICE officials 
required to strictly follow the new policy, or is it used as 
guidance and then there is discretion on a case-by-case basis?
    Mr. Roth. Again, we have not looked at that in any kind of 
audit or investigation, so I think that question is best 
directed to members of the administration or to ICE.
    Senator Sasse. Does the IG's office have any plans or any 
current studies of the President's Executive Actions on 
immigration?
    Mr. Roth. We do not.
    Senator Sasse. Director Saldana, how should ICE officials 
implement the new detention policies that were put in place in 
November 2014 with regard to cases like this? You mentioned the 
timing. Can you give us a broad sense of how you exercise your 
discretion?
    Ms. Saldana. Well, generally speaking--and let me just 
respond to the tail end of that question that you had, and that 
is the requirement of conviction. I am happy to share with you 
this card that we have, which we provide to our ICE officers 
who are involved in this activity. But, there are many 
categories here where a conviction is not necessary. If this is 
a person with a gang affiliation, no conviction is necessary. 
If there is a person with terrorist ties, no conviction is 
necessary. There are several that do involve a conviction, but 
let me point out to you, sir--and I have met with all of our 
field office directors to specify, clearly, to them that there 
is always this category--which is kind of an umbrella 
category--that says that if this does not fit a specific case, 
but you, as an informed and well-trained officer of Immigration 
and Customs Enforcement believe that that person presents a 
public safety threat, you are free to exercise your judgment in 
the manner consistent with that judgment.
    Senator Sasse. But, in this case, Sarah Root is dead. So, 
what if someone kills a U.S. citizen? That does not meet the 
threshold?
    Ms. Saldana. That was after the fact, sir. What you are 
saying, as I understand it, is that that person was injured and 
had 
not--when that 4-hour period of time--seriously injured, but 
had not passed away until later. Again, sir, it is easy to look 
back and say that that judgment was poorly exercised. And, as I 
said earlier, I intend to learn from this particular incident. 
I feel terrible for the Root family and--but I can say, I wish 
I had a 100-percent foolproof method to ensure and--to look in 
the future and ensure whether somebody is going to commit a 
crime or not. And, it is very difficult to do that. I hope you 
take my word that we do the best we can.
    Senator Sasse. I hear you. But, it is not the case that he 
was released and then went and had another drunk-driving, 
street-racing case. This was drunk-driving, street-racing that 
killed someone. Then, he posted bond. Then, the Omaha police 
asked that he be detained. ICE did not detain him and now he 
has fled.
    Ms. Saldana. And, I intend to use this--again, I am going 
to look further into this and use it for lessons learned if I 
find that there were serious errors of judgment here. But, many 
times prosecutorial discretion is just that. It is a judgment 
that is being exercised by the person based on what they see at 
the time.
    Senator Sasse. Thank you.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. And, I also want 
to join to thank our witnesses today for your work. There is no 
question that the most important duty that we have as members 
of the Federal Government is to ensure the security of our 
borders and to ensure the security of the citizens of this 
country. So, I appreciate all of your efforts in doing that 
each and every day. And, I know that it is a difficult job that 
you all have.
    I am very proud to represent, as all of you know, a very 
large and vibrant Arab-American and Muslim community in the 
State of Michigan. And, I heard, from a number of my 
constituents, some concerns about the impact that the dual 
national provisions could have on their families as they are 
traveling to other Visa Waiver Program countries around the 
world.
    We know that Syria and Iran deem individuals to be 
nationals of those countries, regardless of where someone was 
born or whether they have even set foot in that country, simply 
because their fathers were citizens of those countries. Because 
the Visa Waiver Program is based on reciprocity, it is possible 
that a Visa Waiver Program country could impose the same 
requirements on dual national Syrian and Iranian Americans. So, 
I would like a response. Is the Administration--it can be from 
anyone on the panel. Is the Administration concerned that other 
Visa Waiver Program countries could impose restrictions on 
American citizens limiting their ability to travel to 
participating VWP countries without a visa?
    Mr. Donahue. Thank you for your question, Senator. It 
certainly is a concern, I think, for the State Department and 
the Department of Homeland Security. Our Secretaries have been 
working together on the new legislation regarding dual 
nationals. We are certainly concerned that citizens who have 
non-meaningful citizenship that they cannot remove--about the 
effects that that has on their life. They certainly can apply 
for a visa and travel to the United States. We are still 
reviewing that--and, certainly, we are concerned that there 
could be reciprocity from other countries.
    Senator Peters. Would anybody else like to comment? No?
    [No response.]
    Also, for the panel, I would like to know--I would like to 
just get a better sense of how the United States makes dual 
national determinations. So, for example, would a German 
citizen who was born and raised in Germany and has never 
traveled outside of the country, but whose father was Iranian, 
would he be considered a dual German-Iranian national by the 
United States?
    Mr. Donahue. Again, I think we are looking at that. We have 
not made a final decision on how we are going to manage the 
dual citizenship.
    Senator Peters. OK. I would love to work with you on that 
as we go forward. Obviously, we have a situation where a number 
of folks are going to be in that category and they are just 
concerned about how the process will work. And, we need to know 
how the process will work.
    Also, Mr. Donahue, given some of your concerns, are there 
waivers that the State Department would recommend for classes 
such as journalists, non-governmental organization (NGO) 
employees, and, perhaps, certain dual nationals that you could 
offer?
    Mr. Donahue. Yes, the Secretary of State recommended to 
Secretary Johnson that there--and Secretary Johnson agreed that 
that was a reasonable interpretation of the law and that there 
be waivers for those who are helping us in the work that we are 
doing. I think, particularly, we think about aid workers who 
are providing food and sustenance to the millions of people who 
are in camps in countries of concern--Syria, for example--going 
forward.
    Again, while these travelers can travel with a visa--it 
does not affect their travel--it could deter people who want to 
help us in our work. For example, people who are working for 
the International Atomic Energy Agency (IAEA) going to Iran to 
ensure implementation or people who are in business in Northern 
Iraq and are helping that country develop.
    So, we are very concerned about that. We are working 
together. We are looking at those cases. DHS has been building 
questions as part of the Electronic System for Travel 
Authorization (ESTA) program that screens visa waiver 
travelers, and no decisions have been made--or no waivers have 
been granted thus far--but, we do believe that the law was 
written to allow for waivers.
    Senator Peters. Great. Thank you.
    The other area that I think we need to focus on--as a 
country, we are, but I was just hoping to get some response 
from the panel as to how your agencies work on an interagency 
basis with other parts of the Federal Government. A key area is 
trying to stem the financing of terror networks and focus on 
stopping the flow of money back and forth. And, I am just 
curious as to how the interagency visa vetting process works--
how it incorporates information about financial crimes that may 
have been conducted by individuals who may be part of a terror 
financing network. The Department of Treasury is very active 
with this issue. I am just curious as to how you work with the 
Department of Treasury to identify those individuals who may be 
engaged in activities that are seeking to move around the world 
to continue to further those activities.
    Ms. Saldana. Well, I will say that our agency, Homeland 
Security Investigations--that is exactly up our wheelhouse. We 
are concerned about illicit trafficking--illicit financial 
transactions across transnational boundaries.
    So, what we do is we build databases to share information 
with the Department of State and USCIS, specifically, to 
communicate information that we may have regarding a target in 
an investigation or someone who has actually been convicted of 
a crime, which is available to them. We communicate through--
obviously, the PATRIOT system is that first line of defense 
with respect to the visa screening process, but what I am 
talking about is, not only the visa screening process, but 
criminal investigations, in general, worldwide. That is exactly 
what Homeland Security Investigations does.
    Mr. Rodriguez. The one thing that I would add is that we 
have strong relationships running in both directions with our 
law enforcement and intelligence community partners. Beginning 
with our law enforcement partners within DHS, like ICE and CBP, 
it is critical that we receive information from them when we 
adjudicate immigration benefits. We get that information as we 
need it. At the same time, we, occasionally, in the course of 
our work, identify information that is either of law 
enforcement or intelligence value, and we have well-developed 
pathways to make sure that that information is shared.
    One example is, during the course of refugee screening, if 
we learn information that is potentially of intelligence value, 
that information is, in fact, shared with the intelligence 
community.
    Senator Peters. Thank you.
    Mr. Donahue. And, we work very closely with the Department 
of Treasury. When they make a designation, as part of the 
announcement of that designation, anyone who is designated--and 
quite often their family members or anyone who benefits from 
these actions--they pass those to us and we immediately enter 
them into our Lookout system, review any visas, and we can do 
prudential revocations of the visas of anyone who is found by 
the Department of Treasury to be in that class.
    Senator Peters. Great. Thank you.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you, Mr. Chairman.
    I just want to say, first and foremost, how grateful I am 
for the dedication, the work, and the service that the four of 
you render to our Nation. We have an incredible country, the 
oldest constitutional democracy. We were founded in a different 
way than any other nation in the history of the Earth at that 
time. We were founded not because we all prayed the same, not 
because we all looked the same, and not because we all heralded 
from the same genealogy, but rather because we were a nation of 
ideals. And, every generation in this country has aspired to 
make more real those ideals.
    One of the things that has sourced the richness and the 
greatness of this country has been the fact that we are a 
Nation that has people from all over the planet Earth who have 
brought such strength to our economy--growth. Our diversity has 
yielded diversity of thought, diversity of innovation, 
diversity of accomplishment, and, I think, that is one of the 
things that makes America great. And, you all, every day 
grapple in an incredibly difficult space where you are 
balancing our values and our ideals with the urgencies of our 
time. First and foremost amongst them is to keep us safe.
    So, I know how difficult your work is and I just want to 
say thank you. I know these hearings, as, I think, the 
Honorable Mr. Rodriguez was hinting at, can often be difficult, 
but please know I am one of those Senators that just 
appreciates your work.
    I want to just dive in where Senator Peters left off. I 
have a lot of concerns about the issues that face what was 
brought forth in the omnibus last year, when Congress passed a 
provision that would bar dual nationals from Iran, Iraq, Syria, 
and Sudan from using the Visa Waiver Program. I am very happy 
that, in a bipartisan way, Senators Flake, Durbin, and I 
introduced bipartisan legislation, the Equal Protection and 
Travel Act, repealing--seeking to repeal the restrictions on 
dual nationals while, obviously, leaving the other changes to 
the Visa Waiver Program intact.
    I just find it very disturbing that the prohibition on dual 
nationals applies to individuals who were born in Visa Waiver 
Program countries, but who have never even traveled to Iraq, 
Iran, Sudan, or Syria. But, they are nationals of those 
countries solely because of their ancestry. It seems to 
violate, in my opinion, really the values of this country that 
we have seen throughout our history.
    And so, my colleagues and I support the tightening of the 
Visa Waiver Program, but singling out people based solely on 
their ancestry or national origin does not, I believe, make us 
safer. And, it is inconsistent with what I love about our 
country and our interests--and it invites, in my opinion, 
retaliation or discrimination against American citizens who are 
also dual nationals.
    So my question--and maybe I will start with you, Mr. 
Donahue--is just very plain: do you believe that the dual 
national restrictions that I just described enhance our 
national security?
    Mr. Donahue. We certainly are always reviewing where we 
need to put more emphasis and we want to be sure that every 
visa interview is used effectively to protect our borders. But, 
we also realize that the Visa Waiver Program, by its very 
nature, has allowed us to move resources to those places where 
we need to look more closely.
    Senator Booker. So, does it make us safer that somebody 
from Britain or France who has Iranian, Syrian, or Sudanese 
ancestry--does barring them from the Visa Waiver Program make 
us safer, in your opinion?
    Mr. Donahue. I think, all things being equal, not knowing 
the individual--not knowing--you always try to do these on a 
case-by-case basis. But, I agree with you that that is not, in 
and of itself, an indicator----
    Senator Booker. I appreciate that.
    Mr. Donahue [continuing]. That this person is a higher 
threat.
    Senator Booker. In the Senate, whenever I hear those words 
``I agree with you,'' I get very happy--and I appreciate that.
    And so, Mr. Rodriguez or the Honorable Ms. Saldana, do you 
think we gain any additional security benefits by barring 
individuals based on their national origin or heritage?
    Ms. Saldana. Well, as a general proposition, no.
    Senator Booker. OK. Thank you, Mr. Rodriguez.
    Mr. Rodriguez. Let me be very clear. No, we do not. And no, 
we do not do that. We scrutinize people, perhaps, differently 
in situations where they come from conflict zones, 
particularly, conflict zones where there are organizations that 
are actively promoting violence against the United States.
    Senator Booker. Clearly.
    Mr. Rodriguez. But no, we do not--and I would never operate 
an Agency that operated that way.
    Senator Booker. But, the omnibus that passed last year 
called for us to do those things. And, I am very happy that, 
again, a bipartisan group of Senators is saying that we should 
not do those things. And, you are saying to me that we do not 
do them now, or--does it add to our national----
    Mr. Rodriguez. Certainly not in the manner in which my 
agency does any of its work. I do not operate the Visa Waiver 
Program. My agency does not operate that. We do other things 
where we make decisions based on----
    Senator Booker. Right, but you do not think that what I 
described and what was in that omnibus enhances national 
security?
    Mr. Rodriguez. Again, not my lane, so I would not be 
opining on the Visa Waiver Program.
    Senator Booker. You are a smart man to stay in your lane. 
[Laughter.]
    But, a rule, I think, is very important. But, the Honorable 
Ms. Saldana, you do not think it makes us any safer?
    Ms. Saldana. As I said, as a general proposition--again, in 
our role as investigators, we look at every aspect of the facts 
and circumstances pertaining to an individual's application--
and there may be some reason to explore further. But, as a 
general proposition, of course not--not just solely based on a 
remote relationship with someone from a particular country.
    Senator Booker. I am grateful for that response.
    Let me shift into your lane, sir. It was very clear to me, 
after the horrific attacks in France, that many of the people 
who participated in that could have used the Visa Waiver 
Program to come to our country and, by the way, walk into a gun 
show, buy a trunk full of weapons, and commit those crimes here 
just as easily. And so, one of the aspects of the Visa Waiver 
Program that is important to me is our coordination and 
cooperation with our European allies, specifically, in sharing 
information and working against terrorism. So, my final 
question in my remaining few seconds is: I worry that our 
European allies and others might not be doing enough to help 
strengthen our security--to share information and to up their 
procedures and policies to the point where we could effectively 
rely on them. And so, what are we doing to help Europe 
strengthen its border security entry procedures, so that they 
are effectively documenting the refugees coming into their 
countries?
    And, if that is a new signal for my time almost being up, 
it is very effective. [Laughter.]
    Go ahead.
    Mr. Rodriguez. Yes, what I do know is that we work on those 
issues, primarily, through our U.S. intelligence community and 
law enforcement partners. I do know that they are actively 
engaged with their counterparts in Europe and throughout the 
English-speaking world. Just 2 or 3 weeks ago, I spent a lot of 
time with our partners from Australia, England, and Canada 
exchanging information and talking about our common goals in 
this area. We are going to continue doing that on a 
multilateral basis to make sure that we are supporting one 
another in what is really a very critical mission.
    Senator Booker. Mr. Roth, are you satisfied that we are 
doing enough in partnership with our European allies to 
strengthen their policies and procedures to make our country 
safer?
    Mr. Roth. We have not looked at that specific issue of 
information sharing with our foreign partners. I would say, 
though, that anytime that you have a risk-based system, 
particularly in the current terrorist environment, in which you 
have functionally pop-up terrorists--people who are not on 
anybody's list and who are unknown--that the kind of individual 
scrutiny that is required with the Visa Waiver Program really 
is sort of the stop-gap for that.
    Senator Booker. Mr. Chairman, thank you. And, thank you for 
holding such an important hearing.
    Chairman Johnson. Thank you, Senator Booker.
    I want to talk a little bit about the problem of overstays. 
I do not quite understand it. I mean, I do but I do not. We are 
often cited the statistic about how 40 percent of the people in 
this country illegally are here on overstays. Of the best 
estimate--11 to 12 million people in this country illegally--
that puts the number somewhere between 4.4 and 4.8 million 
people here that are overstaying a visa.
    Let me start by asking, does anybody know which visas are 
primarily abused? I will start with Director Saldana.
    Ms. Saldana. I would defer that to the State Department, 
with respect to the overall picture.
    Chairman Johnson. Secretary Donahue, you got the football 
thrown to you.
    Mr. Donahue. I am not sure I have seen a figure on any 
particular area. I really do not know.
    Chairman Johnson. I mean, why would we not know that? The 
article I am looking at says there are still, today, about--
what does it say?--523,000 visa overstays per year. Why would 
we not be tracking that?
    Mr. Donahue. We do track at all of our posts and we do this 
through a validation study. We will check to see, for instance, 
if people from a certain country are coming to the United 
States and staying on a certain type of visa. And, different 
kinds of visas are harder to track. For instance, a visitor, 
admitted for a certain amount of time, 6 months usually--or 3 
months if they are eligible for a visa waiver. A student--that 
is a long-term admission and it is hard to determine at what 
point they become----
    Chairman Johnson. But, are we not working with the schools, 
and are there not requirements of the schools to keep us up to 
date if somebody drops out, is not paying tuition, or something 
like that--that we can report that and then are aware of it, so 
that ICE can potentially enforce?
    Ms. Saldana. Yes. And, of course, with respect to a 
category, this is an educated, I think, guess and that is, the 
most visas we have are B1s or B2s--travelers for business or 
pleasure. So, I would think there would be some correlation 
between that and the number of overstays.
    But, absolutely, we are responsible for the Student 
Exchange Visitor Program (SEVP) and we have the database of 
information in the Student and Exchange Visitor Information 
System (SEVIS) database that relates to all 8,000 universities 
that have students placed there. And, we do have leads that are 
provided to the CTCEU, which I mentioned earlier, with respect 
to overstays. Once again, so much of what we do is risk-based, 
so we are looking at the large universe of overstays and trying 
to determine which of these folks could potentially pose a 
danger or a public safety threat. And, the information we 
have--at least I can give you this, sir: we have about half a 
million--489,579--leads that were provided to CTCEU, where 
there is a flag with respect to business and pleasure 
travelers--the B1 and B2 visas. That is the largest category of 
individuals that we are running down, so I think that 
correlation is supported by that number.
    Chairman Johnson. I realize there are millions--tens of 
millions--of people that come and go out of the United States. 
In today's information technology age, I do not understand what 
is so hard about keeping track of this. Everybody that comes 
here, legally, has a passport that has a number attached, 
correct?
    Ms. Saldana. Yes.
    Chairman Johnson. That goes into a database. What is so 
hard to then have that passport attached to a particular visa? 
Should we not just have the information on this thing? Again, I 
am an accountant, so I am kind of into numbers and I am kind of 
into information. But, when we take a look at what we can do in 
other areas of our economy, whether it is tracking numbers with 
shipments--that type of thing--what has been so hard about us 
developing that database, so we know exactly who has come in, 
who has not gone, and can tie it to a visa--and just know, with 
a great deal of certainty, by pretty much a push of a button on 
a computer all of that information? Why is that?
    Ms. Saldana. Well, we do know, with some degree of 
certainty, what the Principal Deputy was mentioning earlier----
    Chairman Johnson. You were not able to tell me how many--
under what visa program--again, I understand the vast majority 
of visas are in certain categories, so you assume. But, it is 
not like you have ready information, in terms of, ``No, this is 
exactly how many people were granted a visa and have not 
checked out on time--there is an overstay that should be, 
potentially, subject to enforcement.''
    Inspector General Roth, can you speak to this?
    Mr. Roth. What you are referring to really is a biometric 
system for exits, so you can understand who it is that has left 
the country, so you are able to compare those two sets of data.
    Chairman Johnson. First of all, let me--it is just numbers. 
It is actually easier than that. Again, unless I am missing 
something, in terms of people coming in with a passport and a 
visa--that is numerical information and can be easily loaded 
into a database with a set time that a visa expires. We do not 
have a record of this person leaving. To me, that is an 
incredibly simple database to manage. Why do we not do it?
    Mr. Roth. Well, as my most recent report shows, the 
challenges, in the Federal Government, for building these kinds 
of information systems is very difficult. I think there has 
been some effort to try to get an exit system that has not been 
successful. So, I think, as a Federal Government, we are aware 
of the problem, but we have not been able to implement a 
solution.
    Chairman Johnson. Would you agree with me that, in the 
private sector, this would almost be like falling off of a 
log----
    Mr. Roth. Yes.
    Chairman Johnson [continuing]. In terms of developing a 
database like this?
    Mr. Roth. Yes.
    Chairman Johnson. Which begs the question: why can we not 
do this after 10 years in the Federal Government? Unbelievable.
    I will go to Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. And, for the ICE 
Director, please, a number of my colleagues have already spoken 
on this--Senator Grassley, in a floor speech and last night, 
and also Senator Sasse here, in this forum, this morning asked 
a question and raised the case of the tragic death of Iowan 
Sarah Root, who was killed by a drunk driver who was, 
reportedly, in the country illegally and has since posted bail 
and absconded. If it is the case that ICE refrained from 
lodging a detainer on Mejia because his arrest for felony 
vehicular homicide ``did not meet ICE's enforcement 
priorities,'' would you agree with me that ICE needs to take 
another look at its so-called enforcement policies?
    Ms. Saldana. Well, we do that every day. We train and we 
respond to evolving situations on the basis of things we have 
experienced and seen. So, that prosecutorial discretion, as I 
said a little earlier, is just that. It is a person's judgment 
in looking at all of the information in front of them as to 
whether or not they lodge a detainer or not. We do it on a 
case-by-case basis. And, as I said earlier, Senator, this is a 
terrible instance where we will look at it and learn from that 
situation. But, prosecutorial discretion could have been 
exercised a different way here. That is us looking back. I want 
to look forward, so that we do not have that situation arise 
again.
    Senator Ernst. Well, except that the way we look forward, 
though, Director, is also by learning from mistakes of the 
past--and this is not an isolated incident by any means. And, 
the priority should be to ensure that people who enter our 
country illegally and kill American citizens are deported and 
never allowed to return. And, unfortunately, in this situation, 
we have a gentleman who has done exactly that--and I am 
guessing he is still here in the United States somewhere.
    Ms. Saldana. And, we will be looking for him, Senator. This 
does not end there.
    Senator Ernst. I certainly hope so. There is a family that 
demands answers--as do we. And, just to be clear, if he is 
apprehended, today, would Mr. Mejia fit the President's 
enforcement priorities?
    Ms. Saldana. Absolutely.
    Senator Ernst. OK. I look forward to continuing the 
discussion on this. This is important. But, again, it is not an 
isolated incident and we have to make sure that all of our 
agencies--local and Federal--are working together on these 
issues. And, I think we all can learn from this incident.
    Ms. Saldana. I agree.
    Senator Ernst. Thank you for your time.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thank you. Thank you, Mr. Chairman.
    I want to go back to visa overstays. Every State has its 
own Medicaid program. We are told that one of the cost drivers 
for Medicaid is that people have an appointment, but sometimes 
do not show up--oftentimes these are moms, dads, and young 
children--and so, they do a lot of things to try to make sure 
people show up.
    One of the things that we do in Delaware--and in some other 
States as well--and I think we got this idea from Johnson & 
Johnson (J&J)--the other Johnson.
    Chairman Johnson. A good name.
    Senator Carper. And, it is called ``Text for Baby.'' And, 
text messages are sent to parents, who need to make sure that 
their child has an appointment and actually shows up. And, they 
do this maybe a week before or they do it like a day before. 
They may even do it the day of, I think. And, it seems to me 
that that is an idea that--and it has actually helped. It makes 
it more certain that people actually show up for their 
appointments. It saves some money for Medicaid and makes sure 
people get the health care they need.
    I am just wondering if a similar approach might be helpful 
for folks that come to this country--most of the people that 
come to this country come here legally--overwhelmingly so--but 
a bunch of them overstay their visas, as you know. And, I think 
it might be helpful if they were just getting pinged with the 
countdown to the date that their visa expires, saying, ``You 
have 2 weeks to go,'' ``You have 1 week to go,'' ``You have 2 
days to go,'' or ``You have 12 hours to go.'' It is the kind of 
thing that is easily automated and most people who come to this 
country have cell phones. And, I think I always like to look to 
the private sector for a solution that might work for a public 
purpose. Actually, the other is sort of a public purpose as 
well. Just react to that, please.
    Ms. Saldana. It is a very interesting idea, Senator. 
Obviously, everything that we hear here we take back and talk 
to our folks about.
    We have a massive number of students in the system and, as 
the Principal Deputy said earlier, they are on different 
programs. I understand what you are saying--to do the ping at 
the end of the term of the visa, whether or not they are 
finished with their program. So, right now, as I said earlier, 
we are using a risk-based analysis with respect to these 
overstays--who presents a risk in those overstays. It is a 
matter of resources and trying to direct them to the area where 
the greatest risk is. But, that is certainly an interesting 
idea. I think it would require a tremendous number of 
additional resources than we have now to ping millions of 
people. But, that is certainly something I can study further.
    Senator Carper. I was sitting here listening to Senator 
Johnson. He is shaking his head and he said, ``No, it would 
not.''
    Ms. Saldana. No, it would not require additional resources? 
Is that what you are saying, sir?
    Chairman Johnson. Not a tremendous amount.
    Senator Carper. Just think about it, OK? And, I am going to 
ask you to do more than just think about it.
    Ms. Saldana. Absolutely.
    Senator Carper. We will put you in touch with the ``Text 
for Baby'' people and your folks can figure out how they do it.
    Ms. Saldana. Are you saying ``baby''?
    Senator Carper. B-A-B-Y.
    Ms. Saldana. B-A-B-Y, OK.
    Senator Carper. ``Bring back my baby to me.''
    All right. This is a question for Director Saldana and Mr. 
Donahue. You are a good couple here. As I understand it, ICE 
uses an automated system--we talked about it here a little bit 
earlier today--called PATRIOT to conduct the screening of visa 
applicants for all visas that are processed at overseas posts 
where ICE's visa security teams are present.
    What is holding ICE and the State Department back from 
requiring this automated system to be used for all incoming 
visas? Is it simply a matter of resources?
    Ms. Saldana. I would not say ``simply,'' but that is 
certainly a factor. And, actually, Senator, we are undergoing a 
pilot right now under PATRIOT--a PATRIOT expansion pilot--that 
is looking at three additional countries to try to do all--that 
are not necessarily among these 20 or 26 posts where we have 
visa screening--but looking at expanding that and what it would 
take and how much time would be consumed. So, we are actually 
undertaking an evaluation and study of that because, if it is 
possible, it is certainly something we would like to do. But, 
right now, I am not in a position to tell you, ``Absolutely, 
that can happen.'' I think our study wraps up in May, so I will 
be able to report back to you my thoughts and ideas based on 
what we have learned from that expanded PATRIOT project.
    Senator Carper. Would you do that?
    Ms. Saldana. Absolutely.
    Senator Carper. Thank you.
    Mr. Donahue, any thoughts on this one?
    Mr. Donahue. I think we are also working with ICE in 
countries where the physical presence would be good, but is not 
possible because of resources or other reasons, to have some of 
the PATRIOT functions--the computerized functions--done 
domestically and then advising posts of the response to the 
PATRIOT checks. So, that will also expand their ability to 
expand it to more countries.
    Senator Carper. OK. This is a question for everybody--and 
then I am done. Since 9/11, one of the key themes of our 
homeland security efforts has been information sharing. The 
testimony today references a lot of different programs and 
different databases used to screen applicants before they come 
to the United States.
    Can each of you just take a moment to reflect on how well 
integrated these resources are and what barriers remain? And, 
how much of this sharing is automated and how much requires 
time and initiative by an individual officer?
    Mr. Donahue. I can begin from our side.
    Senator Carper. Please.
    Mr. Donahue. I have seen a revolution in the realm of 
information sharing since 9/11--and, especially, in my 32 years 
of doing this kind of work. I think one of the most remarkable 
things is that, today, someone can be interviewing an applicant 
for a visa in Mali. That person's visa will be checked by my 
colleagues and the interagency--law enforcement and the 
intelligence community--response will come back to that 
officer--whether there is anything to be concerned about--in 
addition to whatever he or she has been able to find out in the 
interview.
    Then that person is issued a visa. A person can get on a 
plane today, arrive in Atlanta, and, at the port of entry, the 
officer there will have all of the information that was used in 
making that decision back in Mali--just in less time than the 
flight. So, that kind of information sharing, where we can look 
into--for instance, our database--our major database--there are 
more DHS users than there are State Department users, so that 
people know why we issued a passport or why we issued a visa. 
And, I think that has made us all much more effective.
    Senator Carper. OK. Anyone else? Just very briefly, Mr. 
Rodriguez.
    Mr. Rodriguez. Sure. I think, as this Committee knows, I 
spent most of my career in law enforcement and, very early on, 
I was an organized crime prosecutor. I remember, back in the 
late 1980s and early 1990s, where what was considered our 
organized crime database was actually rows and rows of filing 
cabinets that would fill this room.
    We have certainly come a long way from that time. We now 
have, at USCIS, a very well automated process to ping law 
enforcement and intelligence community databases to determine 
whether an individual seeking an immigration benefit presents a 
threat to the United States. That will never, in my view, be a 
substitute for the human judgment that is required on both 
ends--to make an intelligence community judgment and then for 
us to make an immigration judgment with that information. So, 
that will always continue to be part of it.
    But, in terms of the information moving, we really have 
reached a pretty good point these days.
    Senator Carper. Good. Thank you.
    Ms. Saldana, the same question, just briefly.
    Ms. Saldana. And, I agree, we can always improve and we can 
always do better--we have heard of one or two instances where 
the information--the sharing broke down a little bit. But, the 
Visa Security Program, itself, is an extraordinary example of 
that information sharing. We have our DHS holdings that we 
bounce the PATRIOT inquiry against and it has so many different 
contributors--FBI, obviously the State Department, and other 
law enforcement--and that is an example of the progress that we 
have made.
    We are always working on this to make it better--and 
internationally with our allies and the countries out there 
that we are in.
    Senator Carper. OK. Thank you.
    General Roth, the last word.
    Mr. Roth. Well, thank you, and my apologies for being the 
contrarian or the skeptic in the room. I will have to say 
that----
    Senator Carper. No, no. Be yourself. Be yourself. 
[Laughter.]
    Mr. Roth. It is an occupational hazard, Senator. Several of 
our audits note sort of the difficulty with the paper-based 
system. So, for example, when we compared ICE data with USCIS 
data, in regard to human-trafficking victims, what we found was 
that the perpetrators of human trafficking, who people at ICE 
had investigated, were, in fact, using the visa system to bring 
their victims into the country. And, one of the reasons that 
has occurred is because USCIS still has a paper-based system--
and I am sympathetic to Director Rodriguez's challenges in this 
area. But, for example, an individual who applies for a T 
visa--which is the individual who is a victim of human 
trafficking--submits a statement as to what occurred to that 
person that allows them to receive a T visa. That is not 
digitized in any way, so there can be names and identifiers of 
perpetrators of human trafficking that simply get lost in the 
system.
    So, while I agree that, in many ways, there are systems in 
place that allow for this kind of information sharing, there is 
much that can be done to improve that.
    Senator Carper. All right. Thank you. Thank you for being 
the contrarian in the room. And, thank you to each of you for 
your testimony, your efforts, and your leadership. Thank you.
    Chairman Johnson. Thank you, Senator Carper. I think we 
should work together on some piece of legislation to facilitate 
using the private sector skills that are out there--and 
technologies. Go to any business involved in logistics, whether 
it is FedEx, UPS, or any trucking company. These programs exist 
for tracking. It is a similar type of process--almost off of 
the shelf. I would suggest, maybe, getting some of their IT 
experts in your agencies and let us get this program done. It 
should not take years and years or billions and billions of 
dollars. We have done it in the private sector. It is 
unbelievable what they can really track. And, the information, 
just from a desktop, that a customer can obtain, in terms of a 
package being transferred from this truck to another truck--we 
ought to be able to do the same thing, in terms of tracking 
visa overstays.
    I do want to ask a couple more questions about resource 
capabilities. This is kind of going to what Senator Tester was 
talking about. I will go to you, Mr. Donahue. Again, I am an 
accountant, so I like numbers. As best I can determine, 
somewhere between 20 million and 32 to 33 million people go to 
consulates, go to embassies, and have to do an interview to get 
a visa to come to the United States on an annual basis. Is that 
kind of roughly about the right number? Does that sound about 
right to you?
    Mr. Donahue. It is closer to about 13 million that come in 
and 13.5 million that come in for a visa. The Visa Waiver 
Program is additional to that.
    Chairman Johnson. Something different, OK. You have about 
1,800 foreign service officers that do those interviews, so, 
based on the 13 million number, it is going to be less. But, if 
you talk about 13 million people divided by 1,800, we are 
talking about just a few minutes--probably less than 15 minutes 
per interview. That is not a whole lot of time, is it?
    Mr. Donahue. Well, I think if you take into account the 
entire package, that the person has already gone through 
biometric and biographic database checks and that they have 
completed a very long visa application form that asks a lot of 
information that we check against--we do have fraud units and 
we do have our ICE Visa Security Units (VSUs). And, like any 
other business--you are a businessman--you expedite the easy 
and you spend time on what needs to have time spent on it. So, 
when a person walks in and everything is clear, you do a quick 
interview. You believe the person because of your training and 
knowledge that this person--just as you see at the ports of 
entry--that this person is doing what they say they are doing. 
If the next person comes in and you have concerns, you can stop 
the interview and send it to your fraud unit or go to one of 
our colleagues in DHS. You can continue the interview as long 
as you need to. So, while one may take one minute, another may 
not be cleared for weeks.
    Chairman Johnson. So, it is your sense from around the 
world, really, that the foreign service officers who are in 
charge of this do not feel pressure. You feel that they feel 
they are adequately resourced for the task at hand?
    Mr. Donahue. Certainly people would always like to have a 
few more officers, but I think we have used business practices 
to make this as organized as possible and to make sure that the 
time they spend at the window is the most effective. We would 
certainly like to keep all of our fees--because we are a fee-
based organization--so that we could plow all of that into 
making our business work more efficiently for our customers and 
make sure that we have all of the security checks there. But, I 
think most officers are using good business practices and their 
training. They are putting the work in with those few people 
who come to the United States to do us harm. Really focusing on 
that has proved effective.
    Chairman Johnson. By the way, you talked about a fee-based 
service. It is, again, that tension between security and 
customer service. I come from a business background.
    Mr. Donahue. Right.
    Chairman Johnson. You are generating revenue for your 
organization. You have an incentive for generating more 
revenue, which is somewhat at cross-purpose--trying to run more 
people through to generate the revenue versus ensuring the 
security. So, it does concern me.
    Director Rodriguez, I know President Obama announced the 
granting of--or allowing about 10,000 additional Syrians into 
the country. That is about a 20-percent increase in the number 
of refugees. Again, I am concerned a little bit about taking 
any shortcuts in the process. It normally takes 18 to 24 months 
to review those files. Do you believe you are adequately 
resourced to have a 20-percent increase in the number of 
refugees you fully vet?
    Mr. Rodriguez. I would point out that that is still--even 
that increase is a relatively small part of our overall 
business. We have 8 million cases that we handle in any given 
year across our 19,000 employees.
    Let me also be very clear that we will do our job with 
respect to the refugees that we screen. No corners will be cut.
    Chairman Johnson. Good.
    Mr. Rodriguez. We will do what we need to do.
    Chairman Johnson. That is really what I view our 
responsibility as a Committee to be: to make sure that we do 
not take any shortcuts. So, I appreciate your comments there.
    Let me just wrap up. There are a number of points we did 
want to make--and I want to be respectful of people's time. I 
mentioned that December 3 incident at the office of USCIS in 
San Bernardino. Inspector General Roth, I would appreciate it 
if you would investigate exactly what happened there. That does 
show the potential breakdown of inter-agency cooperation. 
Again, I find it pretty disconcerting, to say the least.
    The K1 visa--ICE is really responsible for verifying those 
marriages. If you come in on a K1 visa, you are supposed to be 
married within 90 days. Again, I do not think we have a 
system--I do not think we are really verifying those things, 
which is a potential vulnerability.
    Inspector General Roth, you talked about the poor data 
collection and information sharing that resulted in human 
trafficking coming across our borders. I would appreciate you 
keeping an eye on that and everybody being aware of that.
    I have not yet received an answer for a letter I have 
written. We had ICE Agent Taylor Johnson in for one of our 
hearings involving government whistleblowers and the 
retaliation against them, which is really prevalent in the 
Federal Government. It is really jaw-dropping. So, Director 
Saldana, I would really appreciate it if you would respond to 
that, because now, apparently, Agent Johnson has been 
terminated--and the process has not really gone through the 
Office of Special Counsel (OSC) or the Inspector General. I am 
really concerned about that particular case.
    Ms. Saldana. And, we have that letter. We are preparing a 
response, sir.
    Chairman Johnson. OK. Again, the oversight of student 
visas--the overstays is a significant issue. I really will work 
with Ranking Member Carper in trying--if we have to produce 
some legislation to facilitate the computer systems, the IT 
systems, to do this--again, coming from the private sector and 
knowing what is available out there, this should not be that 
hard. And, I think it is a critical step we have to take.
    So, again, I do want to thank all of you for your service 
to this Nation. I realize this is tough. There is no perfect 
system. You have a serious responsibility. I know you take 
those responsibilities seriously. So, thank you for your 
service to this Nation, for providing thoughtful testimonies, 
and for taking the time to answer our questions.
    With that, the hearing record will remain open for 15 days, 
until March 30 at 5 p.m. for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              

                               <all>
</pre></body></html>
